Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 CHALLENGES TO FDA’S ABILITY TO
  MONITOR AND INSPECT FOREIGN
        CLINICAL TRIALS




                    Daniel R. Levinson
                     Inspector General

                       June 2010
                     OEI-01-08-00510
I N T R O D        U C T     I O N
    E X E C U T I V E                               S U M M A R Y


                    OBJECTIVE
                    1. To determine the extent to which sponsors submitted data from
                       foreign clinical trials to support drug- and biologic-marketing
                       applications approved by the Food and Drug Administration (FDA) in
                       fiscal year (FY) 2008.

                    2. To determine the extent to which FDA monitors and inspects foreign
                       clinical trials that support marketing applications.


                    BACKGROUND
                    The Food, Drug, and Cosmetic Act requires all new investigational
                    drugs and biologics to undergo clinical trials on human subjects to
                    demonstrate the safety and efficacy of these products prior to approval
                    for sale in the United States. Through its review of the clinical trial
                    protocol and sponsors’ marketing applications and its inspections of
                    clinical trial sites, FDA ensures the rights, safety, and well-being of
                    subjects who participate in these trials and verifies that the clinical trial
                    data collected are both accurate and reliable.

                    Sponsors that wish to market drugs or biologics in the United States
                    must submit marketing applications to FDA. Sponsors may submit
                    data from foreign and domestic clinical trials to support marketing
                    applications. Sources have estimated that between 40 percent and
                    65 percent of clinical trials investigating FDA-regulated products are
                    conducted outside the United States. Sponsors may realize benefits
                    from conducting research abroad, such as lower costs in some countries
                    or the ability to conduct larger trials in less time. Despite benefits to
                    sponsors, critics have raised concerns about the increased prevalence of
                    foreign clinical trials, particularly those conducted in developing
                    countries. The concerns cited by medical ethicists include the ability of
                    local regulatory bodies and institutional review boards to adequately
                    monitor clinical trials to protect the rights and welfare of subjects and to
                    ensure data integrity. Other critics question the extent to which the
                    results from foreign clinical trials conducted in developing countries are
                    generalizable to the U.S. population.

                    We reviewed all marketing applications for drugs and biologics
                    approved in FY 2008 that contained clinical trial data. We used five
                    sources of data in our review: approved FDA marketing applications
                    and corresponding review documents; FDA inspection documents;
                    structured interviews; database of clinical investigators involved with

 OEI-01-08-00510    CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   i
E X E C U T I V E                S U            M M A R Y


                   Investigational New Drug Application (IND) clinical trials; and FDA
                   policies, procedures, and guidance documents. Using these data sources
                   we calculated the number of foreign trials, sites, subjects, and
                   inspections.


                   FINDINGS
                   In FY 2008, sponsors relied heavily on data from foreign clinical
                   trials to support their marketing applications for drugs and
                   biologics. Eighty percent of approved marketing applications for drugs
                   and biologics contained data from foreign clinical trials. Over half of
                   clinical trial subjects and sites were located outside the United States.
                   Western Europe accounted for most foreign clinical trial subjects and
                   sites; however, Central and South America had the highest average
                   number of subjects per site. Based on the increase in foreign clinical
                   investigators conducting clinical trials under INDs over the last10 years
                   and the observations of FDA reviewers, sponsors’ reliance on foreign
                   clinical trials for FDA-regulated drugs and biologics appears likely to
                   grow.
                   FDA inspected clinical investigators at less than 1 percent of foreign
                   sites. FDA inspected clinical investigators at only 1.2 percent of clinical
                   trial sites for applications approved in FY 2008. FDA inspected
                   1.9 percent of domestic clinical trial sites and 0.7 percent of foreign
                   clinical trial sites. The agency targeted domestic sites and original
                   applications, although inspection files and interviews with medical
                   reviewers indicated the main reason for inspecting a specific site was a
                   large number of enrolled subjects.
                   Challenges to conducting foreign inspections and data limitations
                   inhibit FDA’s ability to monitor foreign clinical trials. FDA may be
                   unaware of some ongoing, early-phase clinical trials because sponsors
                   are increasingly conducting early-phase clinical trials outside the
                   United States without INDs. Logistical challenges and sponsors’
                   submission of clinical trial data in a nonstandard format also hinder
                   FDA’s ability to monitor foreign clinical trials. FDA was also unable to
                   account for all clinical trial information because application files were
                   missing or the sponsors failed to provide site locations and subject
                   enrollment in the clinical study reports.




 OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   ii
E X E C U T I V E                S U            M M A R Y



                   RECOMMENDATIONS
                   FDA should take steps to improve its system for overseeing foreign
                   clinical trial data. Toward that end, we recommend that:
                   FDA should require standardized electronic clinical trial data and
                   create an internal database. Requiring sponsors to submit their clinical
                   trial data in a standardized electronic format would help ensure that
                   reviewers had all necessary information from sponsors to effectively
                   analyze the data, enable FDA to create an internal database to
                   systematically cull clinical trial information, and enable FDA to more
                   effectively select sites for inspection and meet its review timelines.
                   FDA should monitor trends in foreign clinical trials not conducted
                   under INDs and, if necessary, take steps to encourage sponsors to file
                   INDs. As sponsors submit future marketing applications with the results of
                   foreign clinical trials that were not conducted under INDs, FDA should
                   assess whether enrolled subjects were at additional risk and whether
                   clinical trial data collected were both accurate and reliable. Should FDA
                   determine that clinical trials not conducted under INDs compromised the
                   rights, safety, and well-being of subjects or the integrity of the data
                   submitted by sponsors, it should consider taking steps to encourage
                   sponsors to voluntarily consult with FDA on their clinical trial protocols or
                   submit INDs to the agency. FDA could also explore providing incentives to
                   promote these, if it deems them appropriate.
                   FDA should continue to explore ways to expand its oversight of
                   foreign clinical trials. To improve its oversight of foreign clinical trials,
                   FDA could take the following additional actions:
                   Continue to develop inspectional agreements with foreign regulatory bodies.
                   By sharing past inspection details as well as future plans, FDA would
                   be better able to maximize its resources allocated to inspections of
                   foreign clinical trial sites. FDA’s recent agreement with the European
                   Medicines Agency is a positive step for the agency to extend its
                   oversight capability outside the United States.
                   Inspect clinical trials in more countries. FDA could target clinical trials in
                   more countries, such as those in countries that the agency has not
                   previously inspected or where Good Clinical Practice standards have
                   only recently been adopted.
                   Look to new models of oversight. FDA could explore other oversight
                   models, such as a quality risk management approach, to oversee clinical
                   trials.

 OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   iii
E X E C U T I V E                S U            M M A R Y



                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   FDA agreed with all three of our recommendations. It also stated that
                   it has ongoing efforts or is developing new procedures to address each
                   recommendation.

                   Where appropriate, we made changes to the report based on FDA’s
                   technical comments.




 OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   iv
   T A B L E             O F            C O N T E N T S



        EXECUTIVE SUMMARY .....................................i




        INTRODUCTION ........................................... 1




        F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                   In FY 2008, sponsors relied heavily on data from foreign clinical
                   trials to support their marketing applications for drugs and
                   biologics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                   FDA inspected clinical investigators at less than 1 percent of
                   foreign sites . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                   Challenges to conducting foreign inspections and data limitations
                   inhibit FDA’s ability to monitor foreign clinical trials. . . . . . . . . . 17



        R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                   Agency Comments and Office of Inspector General Response . . . 22



        A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
                   A: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

                   B: Region Definitions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

                   C: Subjects and Sites by Country for Marketing Applications
                      Approved in Fiscal Year 2008. . . . . . . . . . . . . . . . . . . . . . . . . . 30

                   D: Number of Subjects and Number of Inspections per Country
                      for Marketing Applications Approved in Fiscal Year 2008 . . . 33

                   E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34



        A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43
   I N T R O D U C T I O N


                  OBJECTIVE
                  1. To determine the extent to which sponsors submitted data from
                     foreign clinical trials to support drug- and biologic-marketing
                     applications approved by the Food and Drug Administration (FDA) in
                     fiscal year (FY) 2008.

                  2. To determine the extent to which FDA monitors and inspects foreign
                     clinical trials that support marketing applications.


                  BACKGROUND
                  The Federal Food, Drug, and Cosmetic Act requires all new
                  investigational drugs and biologics to undergo clinical trials on human
                  subjects (hereinafter referred to as “subjects”) to demonstrate the safety
                  and efficacy of these products prior to approval for sale in the United
                  States. 1 Through its review of the clinical trial protocol and sponsors’
                  marketing applications and its inspections of clinical trial sites, FDA
                  ensures the rights, safety, and well-being of subjects who participate in
                  these trials and verifies that the clinical trial data collected are both
                  accurate and reliable.

                  Sponsors that wish to market drugs or biologics in the United States
                  must submit marketing applications to FDA. 2 Sponsors may submit
                  data from foreign and domestic clinical trials to support marketing
                  applications. Sources have estimated that between 40 percent and
                  65 percent of clinical trials investigating FDA-regulated products are
                  conducted outside the United States. 3, 4 A recent analysis of the
                  ClinicalTrial.gov Web site found that the 20 largest United States-based
                  pharmaceutical companies were conducting one-third of their clinical
                  trials exclusively at foreign sites. 5




                    1 The Federal Food, Drug, and Cosmetic Act of 1938, P.L. 75-717, 52 Stat. 1040 (1938)
                  (amended 2004); 21 U.S.C. §§ 355(i) and 360(j).
                    2 21 CFR § 314.50 (drugs) and 21 CFR § 601.2 (biologics).
                    3 Anand, G.; Wang, S.; Whalen, J., “Scrutiny Grows for Drug Trials Abroad,”                        The Wall
                  Street Journal, December 1, 2008.
                    4 Tufts Center for the Study of Drug Development, Outlook 2009, 2009, p. 6.
                    5 Cairns, C.; Califf, R.; Glickman, S.; Harrington, R.; McHutchison, J.; and Peterson, E.,
                  “Ethical and Scientific Implications of the Globalization of Clinical Research,” New England
                  Journal of Medicine, 2009, 360: 816.



OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS              1
I N T R O D        U C T      I O N


                    Sponsors may realize benefits from conducting research abroad, such as
                    lower costs in many countries. 6 Foreign clinical trials may also allow
                    sponsors to conduct larger trials in less time because of access to a
                    larger population. 7 In addition, sponsors may conduct clinical trials in
                    particular countries because it could be a requirement to file for
                    marketing approval in those countries. 8
                    Despite benefits to sponsors, critics have raised concerns about the
                    increased prevalence of foreign clinical trials, particularly those
                    conducted in developing countries. The concerns cited by medical
                    ethicists include the ability of local regulatory bodies and institutional
                    review boards (IRB) to adequately monitor clinical trials to protect the
                    rights and welfare of subjects and to ensure data integrity. 9, 10 Other
                    critics question the extent to which the results from foreign clinical
                    trials conducted in developing countries are generalizable to the U.S.
                    population. 11
                    Clinical Trials
                    Sponsors generally conduct clinical trials in multiple trial sites
                    (hereinafter referred to as “multisite trials”). These multisite trials
                    often take place in many countries. Sponsors hire clinical investigators
                    to manage the trial at each site. Typically, a single clinical investigator
                    may enroll anywhere from one to hundreds of subjects, depending on
                    the trial phase.

                    As a drug or biologic proceeds through development, sponsors conduct
                    clinical trials in three phases. Phase 1 evaluates small groups of
                    healthy volunteers to assess the safety of a product and determine
                    dosage. Phase 2 evaluates the efficacy of the product in patients with
                    the condition to be treated. Phase 3 evaluates the safety and efficacy of
                    a product within a larger population. 12


                      6 Gregory Lopes, “Drug Makers Look East For Testing,”                           The Washington Times,
                    December 8, 2007.
                      7 Ibid.
                      8 Cairns, C., et al., op. cit., p. 817.
                      9 Buchanan, D.; Sifunda, S.; Naidoo, N.; James, S.; and Reddy, P., “Assuring Adequate
                    Protections in International Health Research: A Principled Justification and Practical
                    Recommendations for the Role of Community Oversight,” Public Health Ethics, 2008, 1:3
                    246–257.
                      10 Cairns, C., et al., op. cit., pp. 818–819.
                      11 Ibid, p. 819.
                      12 21 CFR § 312.21.




 OEI-01-08-00510    CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS        2
I N T R O D        U C T      I O N


                    FDA bases its approval to market a new drug or biologic largely on a
                    review of the pivotal trial results that sponsors submit with marketing
                    applications. 13 Pivotal trials are generally Phase 3 trials that support
                    the safety and efficacy of the drug or biologic. FDA requires sponsors to
                    submit all other clinical trial results in their marketing applications, in
                    addition to the pivotal trial results. 14
                    FDA Oversight of Clinical Trials
                    Investigational New Drug Application. FDA’s oversight of a clinical trial
                    begins when a sponsor submits an Investigational New Drug
                    Application (IND) to the agency. Federal law prohibits unapproved
                    drugs and biologics from interstate commerce. The IND provides an
                    exemption from that law. 15 Because interstate commerce laws do not
                    extend to foreign countries, INDs are not necessary for clinical trials
                    conducted exclusively outside the United States.

                    INDs provide FDA with information on the clinical trial protocol, the
                    qualifications of trial personnel, and assurances that trials will protect
                    subjects’ welfare, among other details. FDA has 30 days to review the
                    IND for safety to ensure that research subjects will not be subjected to
                    unreasonable risk. 16 A sponsor may begin its clinical trial 30 days after
                    FDA receives an IND, provided that the agency does not place the study
                    on clinical hold. 17 Thereafter, FDA may choose to inspect a clinical trial
                    while the trial is ongoing.
                    FDA regulations permit sponsors to submit marketing applications with
                    data exclusively from foreign clinical trials even if they are not
                    conducted under INDs. 18 Sponsors may also submit the results of
                    earlier foreign clinical trials that were not conducted under INDs in
                    support of current INDs. 19 In both instances, FDA regulations require
                    that sponsors conducted the clinical trials in accordance with Good
                    Clinical Practice, which is defined as “a standard for the design,
                    conduct, performance, monitoring, auditing, recording, analysis, and
                    reporting of clinical trials in a way that provides assurance that the

                      13 The term “pivotal trial” is not defined in statute or regulations.
                      14 21 CFR § 314.50(d)(5).
                      15 Federal Food, Drug, and Cosmetic Act, op. cit.; 21 U.S.C. § 355(i) and Public Health
                    Service Act of 1944; 42 U.S.C. 262(a).
                      16 21 CFR § 312.42.
                      17 21 CFR §§ 312.40 and 312.42.
                      18 21 CFR § 312.120 and 21 CFR § 314.106.
                      19 21 CFR § 312.23.




 OEI-01-08-00510    CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   3
I N T R O D        U C T      I O N


                    data and reported results are credible and accurate and that the rights,
                    safety, and well-being of trial subjects are protected. 20 FDA regulations
                    also require that sponsors submit information retrospectively that is
                    largely similar to what would otherwise be required by an IND. 21
                    FDA inspections of clinical trial sites. FDA uses onsite inspections to ensure
                    that clinical investigators, sponsors, and IRBs comply with FDA
                    regulations while developing investigational drugs or biologics.
                    Although FDA has the authority to conduct site inspections, it is not
                    required to do so.

                    In 1977, FDA established the Bioresearch Monitoring Program to
                    develop cross-center guidelines for inspections of clinical investigators,
                                          22
                    sponsors, and IRBs. The main objectives of this program are to
                    “protect the rights, safety and welfare of subjects involved in
                    FDA-regulated clinical trials and to verify the accuracy and reliability of
                    clinical trial data submitted to FDA in support of research or marketing
                    applications.” 23 The Bioresearch Monitoring Program for drugs is
                    managed by the Division of Scientific Investigations and for biologics by
                    the Division of Inspections and Surveillance. Medical reviewers, who
                    are responsible for approving or disapproving a product, consult with
                    Bioresearch Monitoring reviewers to choose which clinical trial sites to
                    inspect. Bioresearch Monitoring reviewers analyze various factors, such
                    as the clinical trial protocol risk, high subject enrollment at one site,
                    and the clinical investigator’s inspection history to determine which
                    sites to inspect.

                    FDA may conduct inspections at foreign or domestic sites. Most
                    inspections occur after FDA receives a marketing application and
                    largely verify the accuracy of the clinical trial data submitted with the
                    application. FDA may choose to conduct an inspection while a clinical
                    trial is ongoing.

                    After the inspection, the medical reviewers and Bioresearch Monitoring
                    reviewers discuss inspection findings. FDA may disqualify data from a

                      20 21 CFR § 312.120(a)(i).
                      21 For example, 21 CFR § 312.120 includes requirements that sponsors submit the
                    qualifications of all clinical investigators, a record of an independent review committee
                    oversight, an attestation of the study being conducted according to ethical principles, and a
                    detailed summary of the protocol.
                      22 21 U.S.C. §§ 355(i), 360(i).
                      23 FDA, Compliance Program   Guidance Manual, Chapter 48.811: “Bioresearch
                    Monitoring—Clinical Investigators and Sponsor-Investigators” (December 8, 2008).



 OEI-01-08-00510    CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   4
I N T R O D        U C T      I O N


                    specific subject, site, or trial based on inspection findings. 24 FDA also
                    has the authority to disqualify clinical investigators in cases of
                    deliberate and repeated noncompliance. 25
                    Foreign Oversight of Clinical Trials
                    International guidelines. The World Medical Association developed the
                    Declaration of Helsinki in 1964 to prescribe ethical standards for
                    clinical research. 26 The International Conference on Harmonization
                    developed its Guideline for Good Clinical Practice as a unified standard
                    for clinical trials in the European Union, Japan, and the United States.
                    The objective of this guideline is to establish “an international ethical
                    and scientific quality standard for designing, conducting, recording, and
                    reporting trials that involve the participation of subjects. Compliance
                    with this standard provides public assurance that the rights, safety and
                    well-being of trial subjects are protected.” 27 The guideline has been
                    credited as a model for some countries’ laws and regulations related to
                    clinical trials.
                    Foreign regulatory agencies. In addition to observing international
                    standards and guidelines, sponsors conducting clinical trials in foreign
                    countries must comply with the applicable local laws and regulations.
                    Regulatory agencies in each country may monitor clinical trials and
                    conduct inspections, but they are not required to share their findings
                    with FDA.
                    Marketing Application Review Process
                    To market drugs in the United States, sponsors must submit marketing
                    applications to FDA’s Center for Drug Evaluation and Research
                    (CDER). To market biologics in the United States, sponsors must
                    submit marketing applications to FDA’s Center for Biologics Evaluation
                    and Research (CBER). 28 Before sponsors may begin marketing drugs or
                    biologics, CDER or CBER, as appropriate, must approve the



                      24 Ibid.
                      25 21 CFR § 312.70(a)
                      26 World Medical Association,  World Medical Association Declaration of Helsinki:
                    Ethical Principles for Medical Research Involving Human Subjects, June 1964.
                      27 European Medicines Agency, Harmonized Guideline, Tripartite International
                    Committee on Harmonization Topic E6 (R1): Guideline for Good Clinical Practice, June 10,
                    1996.
                      28 CDER also regulates biologic therapeutics. Hereinafter, we include biologic
                    therapeutics in our discussion and analyses of drugs.



 OEI-01-08-00510    CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   5
I N T R O D        U C T      I O N


                    applications, which consist of information on the products, their
                    manufacturing, clinical trials, and labeling. 29
                    A drug-marketing application for a chemical compound previously
                    unapproved by FDA (i.e., a New Molecular Entity) is called a New Drug
                    Application. A marketing application for a biologic is called a Biologic
                    Licensing Application. (Hereinafter, these two application types will be
                    referred to as “original applications.”) Sponsors may also submit data
                    from clinical trials to support efficacy supplements for approved
                    applications. An efficacy supplement proposes a change to an approved
                    drug’s labeling, such as the indication, dosing, or route of
                    administration. 30
                    Regardless of whether a marketing application contains data from
                    foreign sites, FDA’s review process remains the same. When CDER or
                    CBER receives an application, a medical reviewer first determines
                    whether the sponsor has submitted everything necessary to complete its
                    review. Sponsors identify which clinical trials are the pivotal trials.
                    Clinical study reports that provide results and data analyses from these
                    trials and other pertinent trials must be included in the application. If
                    the application is complete, reviewers conduct a series of scientific
                    analyses on the pivotal trial(s) and other supporting data. These
                    analyses include medical, chemistry, pharmacology, and statistical
                    reviews.

                    Medical reviewers rely primarily on attestations from sponsors that
                    Good Clinical Practices were followed. These attestations are supported
                    by descriptions of the procedures used to ensure compliance with Good
                    Clinical Practices. FDA reviewers also rely on access to all the data and
                    pertinent case reports forms. Meanwhile, Bioresearch Monitoring
                    reviewers analyze data collected from clinical trial site inspections.
                    These reviewers attempt to verify that informed consent was collected,
                    that protocols were followed, and that the clinical trials were conducted
                    in accordance with standard ethical principles. 31
                    If the clinical trial results demonstrate the new drug or biologic to be
                    safe and effective and if FDA reviewers determine that the trial was



                      29 21 CFR § 314.50 (drugs) and 21 CFR § 601.2 (biologics).
                      30 21 CFR §§ 314.3(b) and 314.60.
                      31 FDA, CDER, Manual of Policies and Procedures, MAPP 6010.3, Clinical Review
                    Template, July, 9, 2004, p. 13.



 OEI-01-08-00510    CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   6
I N T R O D        U C T        I O N


                    conducted properly and the data are valid, FDA grants approval for the
                    sponsor to market the product in the United States.

                    The Prescription Drug User Fee Act of 1992 requires FDA to complete
                    its review of drug- and biologic-marketing applications in a timely
                    manner. 32 FDA generally has 6 months to review a priority marketing
                    application and 10 months to complete a review of a standard
                    marketing application.
                    Previous Work
                    A 2001 Office of Inspector General (OIG) report on the globalization of
                    clinical trials found that the number of clinical investigators conducting
                    research outside the United States under INDs increased from
                    1990 to 1999. The report also found that research was occurring
                    increasingly in countries with little clinical trial experience. The report
                    raised concerns regarding FDA’s ability to ensure the same level of
                    protection to subjects enrolled in foreign trials as domestic trials. 33
                    A 2007 OIG report highlighted data limitations that inhibit FDA’s
                    ability to effectively manage inspections of clinical trials. The report
                    found that FDA had limited authority over foreign trials and often did
                    not know that a foreign trial had been conducted until it was completed
                    and its results were submitted to FDA to support a marketing
                    application. 34


                    METHODOLOGY
                    Scope
                    We reviewed clinical trial data from all original applications and
                    efficacy supplements for drugs and biologics approved in FY 2008.
                    Data Sources and Analyses
                    We used five sources of data in our review: approved FDA marketing
                    applications and corresponding review documents; FDA inspection
                    documents; clinical investigator information from INDs; structured
                    interviews; and FDA policies, procedures, and guidance documents.
                    (See Appendix A for a detailed methodology.)



                      32 P.L. 102-571.
                      33 OIG, The Globalization              of Clinical Trials (OEI-01-00-00190), September 2001.
                      34 OIG,   The Food and Drug Administration’s Oversight of Clinical Trials
                    (OEI-01-06-00160), September 2007.



 OEI-01-08-00510    CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   7
I N T R O D        U C T     I O N


                    Approved FDA marketing applications and corresponding review documents.
                    We requested from CDER and CBER a list of all marketing applications
                    for drugs and biologics approved in FY 2008.
                    CDER’s list consisted of 169 marketing applications for drugs. CDER
                    reported that 114 of these marketing applications contained clinical
                    trial data.

                    CBER’s list consisted of 15 marketing applications for biologics. All of
                    these marketing applications contained clinical trial data.

                    We reviewed the 129 marketing applications reported to contain clinical
                    trial data and corresponding review documents. We used FDA
                    databases to locate the review documents for each application.

                    We excluded 8 marketing applications from the original 129 that
                    lacked information on clinical trial locations. This resulted in
                    121 applications from which we calculated the percentage that
                    contained foreign data.

                    Our populations included 193 complete clinical trials. We used these
                    clinical trials to calculate the number of subjects, sites, and regions.
                    FDA inspection documents. We obtained from FDA a list of all inspections
                    it conducted for the marketing applications approved in FY 2008 and
                    their corresponding inspection files. We determined that FDA inspected
                    147 clinical investigators for the marketing applications in our
                    population.

                    We used a logistic multivariate regression model to predict the
                    probability of FDA inspecting a clinical investigator at a domestic site
                    as opposed to a foreign site for a specific clinical trial within an
                    application.
                    Clinical investigator information from INDs. We used the Bioresearch
                    Monitoring Information System to identify and conduct a trend
                    analysis of clinical investigators involved in the conduct of IND
                    studies from 1998 to 2008.
                    Structured interviews. We interviewed 1 reviewer in each of FDA’s 18 review
                    divisions responsible for the marketing applications in our population.
                    The interview questions focused on the processes and challenges, if any,
                    when evaluating data from foreign clinical trials. We also interviewed two
                    senior FDA officials to discuss the processes for determining which sites to
                    inspect and challenges to conducting foreign clinical trial inspections.



 OEI-01-08-00510    CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   8
I N T R O D        U C T     I O N


                    FDA policies, procedures, and guidance documents. We obtained and
                    reviewed all relevant policies, procedures, and guidance documents issued
                    by FDA for accepting marketing applications supported by foreign clinical
                    trials.
                    Limitations
                    Our analysis of marketing applications was limited to 1 year of data.
                    Additionally, we did not verify the information provided by FDA, such
                    as the number of applications approved and the number of inspections.
                    Lastly, we were unable to collect information about the number of
                    subjects at the site level, so we could not identify the largest sites for a
                    clinical trial.
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspections approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




 OEI-01-08-00510    CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   9
        F I N D I N G S

In FY 2008, sponsors relied heavily on data from             In FY 2008, FDA approved
 foreign clinical trials to support their marketing          129 marketing applications
                                                             containing clinical trial data:
             applications for drugs and biologics
                                                             114 for drugs and 15 for biologics.
                       Of these, 121 applications contained sufficient information to determine
                       whether sponsors submitted foreign or domestic clinical trial data:
                       106 for drugs and all 15 for biologics. FDA was unable to locate the
                       other eight marketing applications.
                       Eighty percent of approved marketing applications for drugs and biologics
                       contained data from foreign clinical trials
                       Sponsors submitted 91 marketing applications for drugs containing at
                       least 1 foreign clinical trial site (86 percent). Nine of these applications
                       had exclusively foreign data.

                       Sponsors submitted six marketing applications for biologics containing
                       at least one foreign clinical trial site (40 percent). One of these
                       applications contained exclusively foreign data. (See Table 1 for
                       details.)
                       Table 1: FDA Marketing Applications for Drugs and Biologics
                       Containing Clinical Data Approved in FY 2008

                                                                                                                                Drugs and
                         Marketing Applications                                                      Drugs       Biologics
                                                                                                                                 Biologics


                         Applications With Only Domestic Data                                            15                 9          24

                         Applications With Foreign and Domestic Data                                     82                 5          87

                         Applications With Only Foreign Data                                              9                 1          10

                             Totals                                                                    106              15            121
                       Note: These numbers are based on 121 applications with sufficient information to determine whether the data were
                       foreign or domestic.
                       Source: OIG analysis of FDA marketing applications approved in FY 2008.


                       Over half of all clinical trial subjects and sites were located outside the
                       United States
                       Seventy-eight percent of all subjects who participated in clinical trials
                       were enrolled at foreign sites; 54 percent of all trial sites were foreign.
                       Marketing applications for both drugs and biologics had about half
                       foreign and half domestic trial sites; however, marketing applications
                       for biologics had a much higher percentage of subjects enrolled at
                       foreign sites. (See Table 2 for details.)



     OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS            10
F   I N D I N G        S


                      Table 2: Number and Percentage of Foreign Subjects and Sites
                      From Clinical Trials Supporting Drug- and Biologic-Marketing
                      Applications Approved in FY 2008


                                                                                                                            Drugs and
                                                                                                    Drugs       Biologics
                                                                                                                             Biologics


                           Number of Foreign and Domestic Subjects                                  92,859        206,842     299,701

                             Number of Foreign Subjects                                             52,820        179,712     232,532

                             Percentage of Foreign Subjects                                         56.9%          86.9%        77.6%

                           Number of Foreign and Domestic Trial Sites                               11,227            717      11,944

                             Number of Foreign Trial Sites                                           6,129            356       6,485

                             Percentage of Foreign Trial Sites                                      54.6%          49.7%        54.3%

                      Note: These numbers are based on data from 193 clinical trials with complete subject and site information.
                      Source: OIG analysis of FDA marketing applications approved in FY 2008.


                      Fifty-seven percent of subjects participating in clinical trials supporting
                      marketing applications for drugs were enrolled at foreign sites. These
                      sites accounted for 55 percent of all trial sites in marketing applications
                      for drugs. The average number of subjects per trial site was similar for
                      foreign and domestic sites: nine at foreign sites and eight at domestic
                      sites.

                      Eighty-seven percent of subjects who participated in clinical trials
                      supporting marketing applications for biologics were enrolled at foreign
                      sites. These sites accounted for half of all trial sites in marketing
                      applications for biologics. The average number of subjects per site was
                      much greater at foreign sites: 505 at foreign sites versus 75 at domestic
                      sites.

                      Marketing applications for biologics often contain extremely large
                      clinical trials. For example, 1 trial in Sweden enrolled almost
                      83,000 subjects at 14 sites, with an average number of subjects per site
                      of almost 6,000. This trial partially explains the large difference in the
                      number and percentage of foreign subjects in applications for biologics
                      compared to drugs.
                      Western Europe accounted for most foreign clinical trial subjects and sites
                      Sponsors submitted marketing applications with over 200,000 subjects
                      enrolled at over 6,500 foreign sites. Within these applications, Western
                      Europe accounted for 58 percent of subjects enrolled at foreign sites and
                      60 percent of foreign sites. Although Western Europe accounted for

    OEI-01-08-00510   CHALLENGES    TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS          11
F   I N D I N G        S


                      most of the subjects enrolled at foreign sites, Central and South
                      America also enrolled a significant number. This region contained
                      26 percent of all subjects enrolled at foreign trial sites, but it accounted
                      for only 7 percent of foreign sites. (See Graph 1 for details. Also see
                      Appendix B for regional definitions.)
                      Graph 1: Percentage of Foreign Clinical Trial Subjects and
                      Sites by Region for FDA Marketing Applications Approved in
                      FY 2008

                           70%

                           60%

                           50%

                           40%

                           30%

                           20%

                           10%

                           0%
                                   Western              Eastern                    Asia       North America Central and     Africa and
                                   Europe               Europe                                 (Non-U.S.) South America     Middle East

                                                               Percentage of Subjects            Percentage of Sites


                      Note: These numbers are based on data from 193 clinical trials with complete subject and site information.

                      Source: OIG analysis of FDA marketing applications approved in FY 2008.

                      Central and South America had the highest average number of subjects
                      per site compared to other foreign regions that enrolled clinical trial
                      subjects. The average number of subjects per site was more than three
                      times as large for Central and South American countries as for Western
                      European countries. (See Graph 2 for more details. Also see Appendix
                      C for country-specific data.)




    OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND    INSPECT FOREIGN CLINICAL TRIALS                 12
    F   I N D I N G                 S


                                   Graph 2: Average Number of Subjects per Foreign Site
                                   Contrasted With Percentage of Foreign Subjects and Sites by
                                   Region for FDA Marketing Applications Approved in FY 2008

                                         Average Number of Foreign                                          Percentage of Foreign
                                           Subjects per Site                                                 Subjects and Sites


Central and South America


North America (Non-U.S.)


  Africa and Middle East


                   Asia


        Eastern Europe


        Western Europe


                           140   120    100     80         60         40        20              0     10%   20%    30%    40%   50%     60%   70%

                           Percentage of Foreign Subjects            Percentage of Foreign Sites                Average Number of Subjects per Site


                                   Note: These numbers are based on data from 193 clinical trials with complete subject and site information.

                                   Source: OIG analysis of FDA marketing applications approved in FY 2008.

                                   Reliance on foreign clinical trials for FDA-regulated drugs and biologics
                                   appears likely to grow
                                   The percentage of foreign clinical investigators conducting clinical trials
                                   under INDs has more than doubled over the past decade. 35 (See Graph
                                   3 for details.) Clinical trials may take several years to complete before
                                   they appear in a marketing application. Therefore, the increase in
                                   foreign clinical investigators conducting trials under INDs will not lead
                                   to an immediate increase in the use of foreign clinical trial data.
                                   Rather, this increase in foreign clinical investigators suggests a possible
                                   increase in foreign clinical trial data in future marketing applications.




                                     35 Only CDER tracks the number of foreign clinical investigators who are conducting
                                   research under INDs.



        OEI-01-08-00510            CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS               13
 F   I N D I N G        S


                       Graph 3: Trend in Foreign Clinical Investigators as a
                       Percentage of All Clinical Investigators Identified in INDs From
                       1998 to 2008

                                                                           40.0%




                            Percentage of Foreign Clinical Investigators
                                                                           35.0%

                                                                           30.0%

                                                                           25.0%

                                                                           20.0%

                                                                           15.0%

                                                                           10.0%

                                                                           5.0%

                                                                           0.0%
                                                                                        1998      1999       2000       2001        2002     2003   2004   2005   2006     2007   2008
                                                                                                                                             Year

                       Source: OIG analysis of FDA’s Bioresearch Monitoring Information System data from 1998 through 2008.

                       FDA reviewers indicated the trend is likely to continue. Twelve of
                       eighteen medical reviewers who commented on trends noted that
                       sponsors’ use of foreign data is increasing. Reviewers cited Western and
                       Eastern Europe, Central and South America, and China and India as
                       regions or countries in which sponsors are conducting more clinical
                       trials. FDA reviewers expect more clinical trials from these regions or
                       countries to support marketing applications in the coming years.


FDA inspected clinical investigators at less than               Clinical trial site inspections are
                       1 percent of foreign sites               an important part of FDA’s
                                                                oversight of clinical trials, both
                       foreign and domestic. The agency uses them to verify the quality and
                       integrity of clinical trial data and to ensure that subjects were
                       protected. However, inspections are not the only oversight mechanism
                       available. FDA also reviews study protocols during the IND phase. In
                       addition, regulatory authorities in other countries sometimes conduct
                       inspections, although the results of these inspections are not necessarily




     OEI-01-08-00510   CHALLENGES                                                  TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS                 14
F   I N D I N G        S


                      shared with FDA. However, according to FDA, the possibility of an
                      inspection helps keep involved parties aware of their responsibilities. 36
                      FDA inspected clinical investigators at few clinical trial sites overall
                      FDA inspected clinical investigators at 1.2 percent of clinical trial sites
                      for drug- and biologic-marketing applications approved in FY 2008. 37
                      FDA inspected investigators at 0.7 percent of foreign clinical trial sites
                      compared to 1.9 percent of domestic clinical trial sites. (See Table 3 for
                      more details and Appendix D for additional information.)
                      Table 3: Number and Percentage of Clinical Investigator
                      Inspections at Domestic and Foreign Sites for FDA Marketing
                      Applications Approved in FY 2008

                                                                                                    Number of         Percentage of Sites
                           Site Location                  Number of Sites
                                                                                                   Inspections                 Inspected


                           Domestic                                         5,459                          102                      1.9%

                           Foreign                                          6,485                           45                      0.7%

                             Overall Total                                11,944                           147                      1.2%


                      Note: These numbers are based on data from 193 clinical trials with complete subject and site information.
                      Source: OIG analysis of FDA marketing applications approved in FY 2008.


                      FDA inspected clinical investigators at trial sites in 20 of the
                      72 countries identified in our review. For the clinical trials in our
                      population, of the almost 12,000 clinical trial sites, 16 percent were
                      located in the 52 countries in which FDA conducted no inspections. Of
                      the almost 300,000 subjects, 21 percent were located in these countries.
                      Of note, some of the countries in which FDA conducted no inspections
                      had clinical trials that enrolled a large number of subjects. (See Table 4
                      for details.) For example, Peru had the fourth largest subject
                      enrollment in our review, yet FDA inspected no trials there for
                      marketing applications in our population.




                        36 OIG, The Food and Drug Administration’s Oversight of Clinical Trials
                      (OEI-01-06-00160), September 2007, p. 32.
                        37 This percentage is similar to that presented in the September 2007 OIG report entitled
                      The Food and Drug Administration’s Oversight of Clinical Trials. That report estimated
                      that FDA inspected about 1 percent of clinical trial sites from FYs 2000–2005. This
                      estimate was based on all clinical trial sites, not just those used to support approved
                      marketing applications, and included all inspection types.



    OEI-01-08-00510   CHALLENGES      TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS            15
F   I N D I N G        S


                      Table 4: Countries With a Large Number of Subjects Enrolled in
                      Clinical Trials That Were Not Inspected for FDA Marketing
                      Applications Approved in FY 2008

                           Country                                                                                    Number of Subjects

                           Peru                                                                                                  13,628
                           Colombia                                                                                                5,480
                           Chile                                                                                                   4,949
                           Panama                                                                                                  4,310
                           Venezuela                                                                                               4,258
                           Nicaragua                                                                                               4,057
                           Dominican Republic                                                                                      4,056
                           Denmark                                                                                                 3,089
                           Norway                                                                                                  2,513
                           Poland                                                                                                  2,306

                              Total                                                                                              48,646

                      Note: These numbers are based on data from 193 clinical trials with complete subject and site information.
                      Source: OIG analysis of FDA marketing applications approved in FY 2008.


                      FDA inspections targeted clinical investigators at domestic sites and
                      original applications
                      Our regression analysis indicated that FDA was 16 times more likely to
                      inspect a clinical investigator at a domestic site than a foreign site and
                      that FDA was 9 times more likely to conduct an inspection for an
                      original application than for an efficacy supplement for drugs and
                      biologics. (See Appendix A for details.)

                      However, inspection files and interviews with medical reviewers
                      indicated the main reason for inspecting a specific clinical investigator
                      was a large number of enrolled subjects at his or her site. Additional
                      reasons for choosing to inspect an investigator included whether the site
                      had a large effect on efficacy results, had data inconsistencies, had
                      statistical outliers, or was part of an original application.
                      Additional analysis also indicated that FDA inspected clinical
                      investigators at almost three times as many sites with large
                      enrollments than with small enrollments. 38 (See Table 5 for details.)
                      This corresponds with reviewers’ statements that sites with a large
                      number of subjects are targeted for inspection.

                        38 “Larger enrollments” is defined as average number of subjects per site greater than or
                      equal to the median, 7.



    OEI-01-08-00510   CHALLENGES      TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS            16
     F    I N D I N G                    S


                                        Table 5: Inspections Conducted at Clinical Trial Sites With
                                        Larger and Smaller Enrollments for FDA Marketing Applications
                                        Approved in FY 2008


                                      Average Number of Subjects Per Site Less                                Average Number of Subjects Per Site Greater
                                                                  Than Seven                                                     Than or Equal to Seven

  Application Type

                                             Sites               Total               Percentage                        Sites        Total       Percentage
                                         Inspected               Sites                Inspected                    Inspected        Sites        Inspected


  Original Application                             19               224                         8.5%                       39         151           25.8%

  Efficacy Supplement                               4               534                         0.7%                       24         644             3.7%

      Total                                        23               758                        3.0%                       63         795             7.9%
Note: Seven is the median number of subjects per site for all clinical trials in our population.
Note: The number of sites and the number of inspections in Table 5 are different from those in Table 3. The number of sites in Table 3 is based on the
193 clinical trials with complete subject and site information, and the number of inspections is based on clinical investigator inspections for these clinical
trials. The number of sites in Table 5 is based on a count of the countries in which trials were conducted to support each application, and the number of
inspections is based on whether an inspection occurred in these countries.
Source: OIG analysis of FDA marketing applications approved in FY 2008 and associated clinical inspections.




       Challenges to conducting foreign inspections
         and data limitations inhibit FDA’s ability to
                       monitor foreign clinical trials

                                        FDA is unaware of some ongoing, early-phase foreign clinical trials
                                        If a sponsor has not submitted an IND or consulted with FDA in some
                                        other way about its foreign clinical trials, FDA has no way of knowing
                                        whether and where clinical trials are taking place. Current regulations
                                        allow sponsors to submit data from these trials in support of future
                                        INDs or marketing applications. Several medical reviewers reported
                                        that sponsors are increasingly conducting early-phase clinical trials
                                        outside the United States without INDs. Because it takes several years
                                        for sponsors to complete all the clinical trials needed to support safety
                                        and efficacy, FDA will be unable to determine the extent of this trend
                                        until sponsors submit clinical trial results in their marketing
                                        applications several years from the start of the trials.

                                        Early-phase trials may pose more risk for subjects because the drugs or
                                        biologics have not been tested widely in humans and because they are
                                        being tested in an otherwise healthy population, the members of which
                                        have nothing to gain therapeutically. If FDA was aware of early-phase

          OEI-01-08-00510               CHALLENGES      TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS               17
F   I N D I N G        S


                      trials through an IND, it could potentially conduct inspections to ensure
                      that all parties comply with applicable regulations and that subjects are
                      protected. However, without an IND, FDA is unaware that these trials
                      are occurring and has no authority to oversee them. 39
                      Logistical challenges complicate foreign inspections
                      FDA officials reported on a variety of logistical challenges FDA faces
                      when inspecting clinical investigators at foreign sites. According to
                      these officials, inspectors are generally allowed 1 week, including travel
                      time, to conduct these inspections. FDA is unable to easily extend the
                      inspections if significant compliance issues or other problems arise.
                      Officials also reported that obtaining work visas and translators are
                      obstacles to conducting foreign inspections. Lastly, inspections are
                      expensive and may not always be cost effective. One FDA official told
                      us that as sponsors conduct multisite trials at increasingly more sites,
                      fewer subjects are enrolled at any one site. With inspections costing
                      about $40,000 each and the additional logistical challenges of
                      conducting inspections at foreign sites, it may be more difficult for FDA
                      to justify a foreign inspection. 40
                      FDA is taking steps to maximize its resources for inspecting foreign
                      clinical trials. The agency is piloting a computer-based tool (hereinafter
                      referred to as “site selection tool”) to select inspection sites based on risk
                      factors unique to a particular clinical trial. Further, FDA recently
                      announced an initiative with its European counterpart in which both
                      agencies will share information concerning the planning of and results
                      from Good Clinical Practice inspections. Both initiatives could enable
                      FDA to more efficiently target its resources for riskier foreign clinical
                      trials.
                      Sponsors submitted clinical trial information in a nonstandard format
                      FDA recommends that sponsors follow Good Clinical Practice guidelines
                      for submitting clinical trial study reports, in addition to requiring that
                      sponsors submit the complete raw data sets of all clinical trials. These
                      guidelines recommend that sponsors submit trial data displayed by


                        39 FDA may become aware of a foreign clinical trial not conducted under an IND if the
                      sponsor requests a meeting before filing a marketing application. Sponsors sometimes use
                      such a meeting to resolve questions and issues raised during the course of a clinical
                      investigation. See 21 CFR § 312.47.
                        40 A budget official from the Office of Regulatory Affairs provided the budgeted cost for
                      inspections in FY 2008. The inspection cost is about the same for domestic and foreign
                      inspections.



    OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   18
F   I N D I N G        S


                      clinical trial sites when the sites have enough subjects to make such an
                      analysis valuable. 41
                      Despite the Good Clinical Practice guidelines, sponsors generally
                      submitted clinical study reports in portable document formats, which
                      FDA is unable to directly analyze. Within these documents, the data
                      are presented inconsistently, making it difficult to locate clinical trial
                      information, particularly site locations and subject enrollment. As a
                      result, reviewers generally use the raw data submitted by the sponsors
                      to analyze clinical trial results. Although we did not evaluate raw data
                      files, an FDA official told us these files could be as varied and time
                      consuming to analyze as the clinical study reports. In many cases, FDA
                      staff contacted sponsors multiple times to request data in a format they
                      could analyze. The FDA official reported that nonstandard and missing
                      data adversely affect FDA’s ability to review marketing applications and
                      meet timelines prescribed by the Prescription Drug User Fee Act of
                      1992. 42
                      FDA is taking steps to address nonstandard data submissions. The
                      agency is currently piloting a data management system, which would
                      potentially require sponsors to submit standardized clinical trial data.
                      This data management system would enable medical reviewers to
                      review safety and efficacy data more effectively. 43
                      FDA was unable to account for all clinical trial information
                      FDA was unable to provide detailed clinical trial data for 29 of the
                      129 applications within our review. FDA was unable to locate any
                      portion of 8 of these 29 applications. All eight applications were paper.

                      For the other 21 applications, FDA provided incomplete clinical study
                      reports. Four of these applications were paper and the rest were
                      electronic. In some cases, the sponsors failed to provide site locations
                      and subject enrollment in the clinical study reports, and in other cases,
                      appendixes that were supposed to contain the information were missing.




                        41 European Medicines Agency, International Committee on Harmonization, Topic 3,

                      Structure and Content of Clinical Study Reports, p. 22, July 1996.
                        42 21 U.S.C. § 301.
                        43 OIG interview with an Office of Critical Path Programs official.




    OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   19
         R E C O M M E N D A T I O N S

                  Sponsors relied heavily on data from foreign clinical trials to support
                  their marketing applications for drugs and biologics approved in
                  FY 2008. The percentage of foreign clinical investigators conducting
                  drug research under INDs has more than doubled over the past decade,
                  and FDA reviewers indicated that the number of marketing applications
                  supported by foreign clinical trials will likely continue to increase.

                  Meanwhile, FDA inspected few clinical investigators at foreign sites.
                  Our review identified shortcomings, such as data limitations and
                  logistical challenges, that also inhibited FDA’s ability to monitor foreign
                  clinical trials effectively.
                  FDA has taken several steps to address these vulnerabilities, such as
                  developing a site selection tool and drafting industry guidance for
                  standardized clinical trial data. Our review shows that FDA should
                  take additional steps to improve its system for overseeing foreign
                  clinical trial data. Toward that end, we recommend that:
                  FDA should require standardized electronic clinical trial data and create an
                  internal database
                  Requiring sponsors to submit all necessary clinical trial data in a
                  standardized electronic format would help ensure that reviewers had all
                  information from sponsors to effectively review the data. It would also
                  enable FDA to create an internal database to systematically cull clinical
                  trial information. Standardized clinical trial data would also enable
                  FDA to more effectively select sites for inspection and meet its review
                  timelines. FDA’s data management system under development is a
                  positive step to collecting standardized clinical trial data.

                  An internal database would enable FDA to conduct trend analyses to
                  determine where sponsors were conducting clinical trials as well as
                  identify areas of risk, such as the number of adverse events at any
                  specific site or the numbers of subjects enrolled at clinical trial sites
                  with histories of noncompliance, more quickly.
                  FDA should monitor trends in foreign clinical trials not conducted under
                  INDs and, if necessary, take steps to encourage sponsors to file INDs
                  As sponsors submit future marketing applications with the results of
                  foreign clinical trials that were not conducted under INDs, FDA should
                  assess whether enrolled subjects were at additional risk and whether
                  clinical trial data collected were both accurate and reliable.

                  Conducting a trial under an IND provides an additional layer of
                  oversight. An IND enables FDA to review the protocol before any


OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   20
R   E C O        M M E N D A T                   I O N               S


                      subjects are enrolled in the trial. An IND also gives FDA more
                      opportunity to ensure data integrity through real-time inspections.
                      FDA may require sponsors to change the protocol or may even prevent
                      the trial from starting if it identifies concerns.

                      Should FDA determine that clinical trials not conducted under INDs
                      compromise the rights, safety, and well-being of subjects or the integrity
                      of the data submitted by sponsors, it should consider taking steps to
                      encourage sponsors to voluntarily consult with FDA on their clinical
                      trial protocols or submit INDs to the agency. FDA could also explore
                      providing incentives to promote these, if it deems them appropriate.
                      Such incentives may require FDA to seek new legislative authority.
                      FDA should continue to explore ways to expand its oversight of foreign
                      clinical trials
                      As sponsors increase the number of foreign clinical trials in support of
                      FDA marketing applications, the agency’s current method of using
                      inspections to ensure human subject protections and data validity is
                      becoming increasingly strained. To improve its oversight of foreign
                      clinical trials, FDA could take the following additional actions:
                      Continue to develop inspectional agreements with foreign regulatory bodies.
                      By sharing past inspection details as well as future plans, FDA would
                      be better able to maximize its resources allocated to inspections of
                      foreign clinical trial sites. FDA’s recent agreement with the European
                      Medicines Agency is a positive step for the agency to extend its
                      oversight capability outside the United States.
                      Inspect clinical trials in more countries. FDA could target clinical trials in
                      more countries, such as those in countries that the agency has not
                      previously inspected or where Good Clinical Practice standards have
                      only recently been adopted.

                      We recognize that inspecting more foreign sites would require
                      additional resources; however, doing so would communicate to sponsors,
                      clinical investigators, and IRBs the importance of complying with FDA
                      regulations.
                      Look to new models of oversight. FDA could explore other oversight
                      models, such as a quality risk management approach, to oversee clinical
                      trials. Although not required to, FDA currently inspects clinical trials
                      sites for almost all original applications. A quality risk management
                      approach could focus on identifying and analyzing risk factors unique to
                      each investigational drug or biologic. After assessing the degree of risk,


    OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   21
R   E C O        M M E N D A T                   I O N               S


                      FDA would then be able to determine the appropriate level of oversight.
                      FDA’s new site selection tool is a positive example of taking steps to
                      utilize quality risk management principles.



                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      FDA agreed with all three of our recommendations. It also stated that
                      it has ongoing efforts or is developing new procedures to address each
                      recommendation.

                      To address our recommendation that it require standardized clinical
                      trial data and create an internal database, FDA said that it will
                      continue piloting its site selection tool, and, if the pilot is successful,
                      expand its use of the tool within FDA. The agency added that the data
                      captured by the site selection tool represent a partial solution and that
                      it is considering long-term solutions.

                      FDA agreed with our second recommendation, that trends in clinical
                      trials should be monitored to assess whether differences exist in data
                      integrity and human subject protections between domestic and foreign
                      clinical trial sites. FDA said that it will continue to assess these trends
                      through inspection data. The agency added that it will explore whether
                      tracking the number of applications with clinical trial data not collected
                      under INDs is feasible, and if so, initiate such tracking.
                      FDA agreed with our third recommendation and highlighted steps it is
                      taking to expand its oversight of foreign clinical trials. The agency
                      stated that if these steps are successful, it plans to leverage its
                      partnership with the European Medicines Agency to work with other
                      regulatory bodies. In addition, FDA highlighted its efforts to expand
                      outreach and training in Good Clinical Practice concepts worldwide.

                      Where appropriate, we made changes to the report based on FDA’s
                      technical comments.

                      The full text of FDA’s comments is provided in Appendix E.




    OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   22
         A P P E N D I X ~ A

                  Detailed Methodology
                  Scope
                  We reviewed data from all New Molecular Entities, Biologic Licensing
                  Applications, and efficacy supplements (hereinafter referred to
                  collectively as “marketing applications”) approved in fiscal year (FY)
                  2008. We reviewed all marketing applications approved in
                  FY 2008 from two Food and Drug Administration (FDA) Centers: the
                  Center for Drug Evaluation and Research (CDER) and the Center for
                  Biologics Evaluation and Research (CBER).
                  Data Sources and Data Analyses
                  We used five sources of data in our review: approved FDA marketing
                  applications and corresponding review documents; clinical investigator
                  information from Investigational New Drug Applications (IND); FDA
                  inspection documents; structured interviews; and FDA policies,
                  procedures, and guidance documents.
                  Approved FDA Marketing Applications and Corresponding Review Documents
                  We requested from CDER and CBER a list of all marketing applications
                  for drugs and biologics approved in FY 2008, indicating which
                  marketing applications were supported by clinical trial data. We
                  received the list from CDER in March 2009 and from CBER in
                  June 2009.

                  CDER’s list consisted of 169 marketing applications for drugs. CDER
                  reported that 114 of these marketing applications contained clinical
                  trial data.

                  CBER’s list consisted of 15 marketing applications for biologics. All of
                  these marketing applications contained clinical trial data.

                  We reviewed the 129 marketing applications reported to contain clinical
                  trial data and corresponding review documents. We used one of three
                  FDA databases to locate the review documents for each approved
                  marketing application: the CDER Division File System, the Biologic
                  Licensing Application Action Package Files, or the public online
                  database. 44
                  For each marketing application in our population, we used the medical
                  review to determine the pivotal clinical trials that supported the drug’s


                   44 Accessed online at http://www.accessdata.fda.gov/Scripts/cder/DrugsatFDA/ on
                  March 12, 2010.



OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   23
A   P   P E N D       I X ~    A


                      efficacy and safety. For New Molecular Entities and Biologic Licensing
                      Applications, when the medical reviews did not specify which trials
                      were pivotal, we instead determined which trials supported the entities’
                      efficacy and safety and considered them the pivotal trials. For efficacy
                      supplements, we reviewed all submitted clinical trials. We recorded the
                      pivotal trials in an Access database.

                      We located the sponsors’ marketing applications in one of the following
                      places: Electronic Common Technical Document System,
                      GlobalSummit, or Electronic or Paper Document Rooms. We reviewed
                      the sponsors’ marketing application packages for all pivotal clinical
                      trials. Our review of the Clinical Study Reports within the application
                      packages provided information on the number of subjects, sites, and
                      countries in which the trials were conducted for each pivotal trial. We
                      recorded all information in an Access database.
                         Approved marketing application calculations: According to FDA,
                          129 marketing applications contained clinical trial data. We
                          excluded eight marketing applications that lacked information on
                          clinical trial locations. This resulted in 121 marketing
                          applications from which we calculated the percentage that
                          contained foreign data. Twenty-one additional marketing
                          applications included only enough information to determine
                          whether they contained foreign or domestic clinical trials.
                         Clinical trial calculations: The 129 approved marketing
                          applications had 252 clinical trials. To avoid double counting, we
                          excluded 32 trials that supported multiple marketing applications,
                          leaving 220 clinical trials. We excluded 27 clinical trials that
                          lacked complete data on trial locations, sites, or subjects. We used
                          the resulting 193 complete clinical trials to calculate the number
                          of sites, subjects, and regions.
                         Subject and site calculations: We counted all randomized subjects
                          for each of the pivotal trials in the original 129 marketing
                          applications. We counted each site that randomized subjects for
                          each of the pivotal trials in our population.
                      FDA Inspection Documents
                      We obtained from CDER’s Division of Scientific Investigations (DSI)
                      and CBER’s Division of Inspections and Surveillance (DIS) a list of all
                      inspections conducted for the marketing applications approved in
                      FY 2008 and their corresponding inspection files. Based on the files
                      provided by the Bioresearch Monitoring Programs at DSI and DIS, we

    OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   24
A   P   P E N D       I X ~       A


                      determined the number of inspections conducted for the 129 approved
                      marketing applications. The files also provided insight into FDA’s
                      process for determining which sites to inspect, inspection locations, and
                      the outcomes of these inspections. We received the following:
                           DSI Data: We received one spreadsheet in April 2009. The
                            spreadsheet contained 152 inspection records for marketing
                            applications for drugs in our review.

                            For 15 of these inspections, DSI records indicated that multiple
                            clinical trial records were reviewed at 1 site. To account for this, we
                            added 21 records, bringing the total inspection records to 173.
                            We eliminated all inspections classified as “Withdrawn” or
                            “Canceled.” We also eliminated inspections with clinical trial names
                            that failed to match the clinical trials in our population. We ended
                            up with 134 CDER inspections.
                           DIS Data: We received one spreadsheet in April 2009. The file
                            contained 27 inspection records for marketing applications for
                            biologics; we did not eliminate any inspections because of their
                            status classifications.

                            Table A-1 shows the inspection information for our population.
                      Table A-1: FDA Inspection Types
                                                                                                                              Percentage of
                          Inspection Type                                              Number of Inspections
                                                                                                                                Inspections

                          Clinical Investigator                                                              147                    91.30%

                          Clinical Research Organization                                                       4                     2.48%

                          Sponsor                                                                             10                     6.21%

                             Overall Total                                                                   161                   100.00%

                       Source: Office of Inspector General (OIG) analysis of FDA clinical inspections for applications approved in FY 2008.




                           Inspection data at a site level: DSI and DIS conducted
                            161 inspections for the marketing applications in our population.
                            We excluded 14 sponsor and contract research organization
                            inspections that were not clinical investigator inspections, leaving
                            147 clinical investigator inspections.
                      We used a logistic multivariate regression model to predict the
                      probability of FDA inspecting a clinical investigator at a domestic site
                      as opposed to a foreign site for a specific clinical trial within an

    OEI-01-08-00510   CHALLENGES      TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS           25
A   P   P E N D       I X ~       A


                      application. 45 Our regression model employed a dichotomous response
                      variable that indicates whether FDA inspected a clinical investigator at
                      the site. We considered the following explanatory variables when
                      building our model: domestic versus foreign site, application type,
                      review division, review class, presence of an IND, and average number
                      of subjects per site. 46 (See Table A-2 for more details.)
                      Table A-2: Regression Variables

                       Variables                                                       Type of Variable                               Values of Variables


                       Response Variable:

                         Inspection Conducted                                               Dichotomous                                        0=No, 1=Yes

                       Explanatory Variables:

                         Review Division                                                      Categorical                                 CDER or CBER

                         Review Type                                                          Categorical                     Orphan, Priority, or Standard

                         Average Number of Subjects per Site                                  Continuous                                Range=0.4-12,400

                         IND                                                                Dichotomous                                        0=No, 1=Yes

                         Application Type                                                   Dichotomous     1=Original Application, 2=Efficacy Supplement

                         Foreign or Domestic Country                                        Dichotomous                            0=Foreign, 1=Domestic
                       Source: OIG analysis of FDA marketing applications approved in FY 2008 and associated clinical inspections.


                      We tested the significance of each explanatory variable using the Wald
                      Chi-Square statistic at the α = 0.05 level. We also used the Pearson
                      Goodness-of-Fit statistic to evaluate the fit of the model as a whole.

                      The most parsimonious model consisted only of foreign or domestic
                      country and application type as explanatory variables. 47 (See Table A-3
                      for the statistics for the significant predictors in our regression model.)



                         45 The denominator of our regression analysis is different from the denominator used to

                      calculate the percentage of clinical trial sites inspected. The number of clinical trial sites
                      for the latter is 12,039, which is the total number of sites for each clinical trial. The
                      regression uses the total number of countries for a specific clinical trial within an
                      application. Further, clinical trials may be duplicated when they are used to support
                      different applications. The denominator of our regression was 1,632.
                         46 Because of data limitations, we were not able to collect the number of subjects enrolled
                      in each site, but were able to calculate the average number of subjects per site for each
                      country.
                         47 The model had a max-rescaled R-square value of 0.34.




    OEI-01-08-00510   CHALLENGES      TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS               26
A   P   P E N D       I X ~       A


                      Table A-3: Regression Statistics for Significant Predictors

                                                                                               Coefficient                    Odds    95%-Confidence
                         Explanatory Variable                                                                    P-value
                                                                                                Estimate                      Ratio          Interval


                         Domestic vs. Foreign Site                                                    2.76      < 0.0001      15.87           9.69–25.99

                         Original Application vs. Efficacy Supplement                                 2.15      < 0.0001       8.57           5.19–14.13

                         Pearson Goodness-of-Fit Test P-value: 0.62*
                       * The Pearson Goodness-of-Fit test’s large p-value indicates insufficient evidence for rejecting the null hypothesis that the
                       model fits.
                       Source: OIG analysis of FDA marketing applications approved in FY 2008 and associated clinical inspections.


                      We found that review division, review type, and IND did not have a
                      significant role in predicting the likelihood of an inspection when
                      modeled with foreign or domestic country, application type, and average
                      number of subjects per site.

                      We discovered an interaction between foreign or domestic country and
                      average number of subjects per site and tested a model that included
                      the interaction along with application type. However, we were unable
                      to produce estimates for that model with confidence because of small
                      population sizes and ultimately chose to present the simpler model
                      described above. (See Table A-4 for the odds ratios from that model.)
                      Table A-4: Odds Ratios for Model With Interaction

                         Explanatory Variable                                                        Odds Ratio            95%-Confidence Interval


                         Domestic, Avg. Subj. Per Site < 7                                                   40.16                    14.56–110.75

                         Domestic, Avg. Subj. Per Site >= 7                                                  10.96                      5.92–20.27

                         Original Application vs. Efficacy Supplement                                         9.64                      5.71–16.29

                       Source: OIG analysis of FDA marketing applications approved in FY 2008 and associated clinical inspections.


                      Clinical Investigator Information From INDs
                      We used the Bioresearch Monitoring Information System (BMIS) to
                      identify clinical investigators, contract research organizations, and
                      institutional review boards listed on INDs from 1998 to 2008. BMIS
                      identified a total of 878,419 clinical investigators, contract research
                      organizations, and institutional review boards in this time period. We
                      eliminated all contract research organizations and institutional review
                      boards, leaving 382,491 clinical investigators. Using these data, we
                      then calculated the percentage of foreign investigators.



    OEI-01-08-00510   CHALLENGES      TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS              27
A   P   P E N D       I X ~    A




                      Structured Interviews
                      We interviewed 1 reviewer in each of FDA’s 18 review divisions
                      responsible for marketing applications in our population. Most were
                      team leaders, who oversaw a group of medical reviewers in their
                      division.

                      The interview questions focused on the processes and challenges, if any,
                      when evaluating data from foreign clinical trials. We developed and
                      used a structured interview guide. After concluding our first two
                      interviews, we solicited comments from the medical reviewers about the
                      interview guide’s content and clarity. We incorporated feedback into
                      the final interview guide used for the remaining 16 medical reviewers.
                      We conducted the interviews in May and June of 2009. At least two
                      OIG staff participated in each telephone interview.

                      To add context to our understanding, we also interviewed two senior
                      FDA officials from DSI and DIS to discuss the processes for and their
                      experiences with conducting foreign clinical trial inspections. Again, we
                      used a structured interview guide. At least two OIG staff participated
                      in each interview.
                      FDA Policies, Procedures, and Guidance Documents
                      We obtained and reviewed all relevant policies, procedures, and
                      guidance documents issued by FDA for accepting marketing
                      applications supported by foreign clinical trials.
                      Data Analysis Software
                      We used SAS Software for most of our data analyses.

                      Limitations
                      Our analysis of marketing applications was limited to 1 year of data.
                      Therefore, we were unable to conduct a trend analysis of foreign data
                      supporting marketing applications; instead we present a trend of
                      clinical investigators named on CDER’s INDs.

                      Additionally, we did not verify the information provided by FDA, such
                      as the number of applications approved and the number of inspections.

                      Lastly, we were unable to collect information about the number of
                      subjects at the site level, so we created a variable to represent the
                      average number of subjects per site at the country level. This is a
                      limitation of the regression model, because the average number of
                      subjects per site does not identify the largest sites in a country.


    OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   28
   A         P P E N D I X ~ B
 A P P         E N D     I X ~      B


Region Definitions


Africa and Middle East
     Cyprus, Egypt, Israel, Lebanon, South Africa, Tunisia, Turkey

Asia
      Australia, China, Hong Kong, India, Indonesia, Japan, Malaysia, New Zealand,
       Philippines, Republic of Korea, Singapore, Taiwan, and Thailand
Central and South America
    Argentina, Brazil, Chile, Colombia, Costa Rica, Dominican Republic, Ecuador,
     Guatemala, Honduras, Nicaragua, Panama, Peru, Uruguay, Venezuela
Eastern Europe
    Belarus, Bosnia and Herzegovina, Bulgaria, Croatia, Czech Republic, Estonia, Georgia,
     Hungary, Latvia, Lithuania, Montenegro, Poland, Romania, Russia, Serbia, Slovakia,
     Slovenia, and Ukraine
North America (Non-United States)
     Canada and Mexico

Western Europe
    Austria, Belgium, Denmark, Finland, France, Germany, Greece, Iceland, Ireland, Italy,
     Netherlands, Norway, Portugal, Spain, Sweden, Switzerland, and United Kingdom




       OEI-01-08-00510   CHALLENGES     TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   29
              A P P E N D I X ~ C


                           Subjects and Sites by Country for Marketing Applications Approved in
                           Fiscal Year 2008

                           Table C-1: Country Breakdown for Drug-Marketing Applications
                           Approved in Fiscal Year (FY) 2008

                            Number of           Percentage of                 Number of            Percentage of         Average Number of
Trial Location
                             Subjects                Subjects                     Sites                    Sites           Subjects Per Site

Argentina                        1,551                        1.7%                        113               1.0%                            14
Australia                        1,586                        1.7%                        228               2.0%                             7
Austria                           645                         0.7%                         71               0.6%                             9
Belarus                            18                         0.0%                             3            0.0%                             6
Belgium                          1,571                        1.7%                        206               1.8%                             8
Bosnia and Herzegovina              3                         0.0%                             1            0.0%                             3
Brazil                           1,863                        2.0%                        187               1.7%                            10
Bulgaria                          507                         0.5%                         43               0.4%                            12
Canada                           3,294                        3.5%                        363               3.2%                             9
Chile                             454                         0.5%                         26               0.2%                            17
China                             424                         0.5%                         32               0.3%                            13
Colombia                          177                         0.2%                         20               0.2%                             9
Costa Rica                       1,436                        1.5%                         15               0.1%                            96
Croatia                           226                         0.2%                         24               0.2%                             9
Cyprus                              3                         0.0%                             1            0.0%                             3
Czech Republic                    670                         0.7%                         69               0.6%                            10
Denmark                           684                         0.7%                         83               0.7%                             8
Ecuador                            50                         0.1%                             4            0.0%                            13
Egypt                              17                         0.0%                             2            0.0%                             9
Estonia                           345                         0.4%                         27               0.2%                            13
Finland                           973                         1.0%                         74               0.7%                            13
France                           3,960                        4.3%                        560               5.0%                             7
Georgia                             1                         0.0%                             1            0.0%                             1
Germany                          7,086                        7.6%                       1,064              9.5%                             7
Greece                            538                         0.6%                         68               0.6%                             8
Guatemala                         138                         0.1%                         12               0.1%                            12
Hong Kong                         190                         0.2%                         18               0.2%                            11
Hungary                           930                         1.0%                         79               0.7%                            12
Iceland                            59                         0.1%                             8            0.1%                             7
India                             384                         0.4%                         49               0.4%                             8
Indonesia                          20                         0.0%                             3            0.0%                             7
Ireland                           209                         0.2%                         26               0.2%                             8
Israel                            720                         0.8%                         81               0.7%                             9
Italy                            2,910                        3.1%                        388               3.5%                             8
Japan                             481                         0.5%                         75               0.7%                             6
                                                                                                                            continued on next page




         OEI-01-08-00510   CHALLENGES    TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS                   30
     A     P    P E N D              I X ~          C


                                       Table C-1: Country Breakdown for Drug-Marketing Applications
                                       Approved in FY 2008 (Continued)

                                         Number of             Percentage of                 Number of            Percentage of         Average Number of
  Trial Location
                                          Subjects                  Subjects                     Sites                    Sites           Subjects Per Site

  Latvia                                         133                         0.1%                         11               0.1%                         12
  Lebanon                                          42                        0.0%                             4            0.0%                         11
  Lithuania                                      262                         0.3%                         19               0.2%                         14
  Malaysia                                       142                         0.2%                         23               0.2%                          6
  Mexico                                         892                         1.0%                         94               0.8%                          9
  Montenegro                                        8                        0.0%                             1            0.0%                          8
  Netherlands                                  1,248                         1.3%                        134               1.2%                          9
  New Zealand                                    365                         0.4%                         38               0.3%                         10
  Norway                                         682                         0.7%                         78               0.7%                          9
  Panama                                         249                         0.3%                         10               0.1%                         25
  Peru                                           234                         0.3%                         26               0.2%                          9
  Philippines                                    367                         0.4%                         23               0.2%                         16
  Poland                                       1,849                         2.0%                        194               1.7%                         10
  Portugal                                       371                         0.4%                         58               0.5%                          6
  Republic of Korea                              409                         0.4%                         32               0.3%                         13
  Romania                                        286                         0.3%                         23               0.2%                         12
  Russia                                       1,226                         1.3%                        141               1.3%                          9
  Serbia                                           75                        0.1%                             7            0.1%                         11
  Singapore                                      170                         0.2%                         22               0.2%                          8
  Slovakia                                       348                         0.4%                         25               0.2%                         14
  Slovenia                                       141                         0.2%                         10               0.1%                         14
  South Africa                                 1,140                         1.2%                        130               1.2%                          9
  Spain                                        2,993                         3.2%                        378               3.4%                          8
  Sweden                                         818                         0.9%                         83               0.7%                         10
  Switzerland                                    262                         0.3%                         50               0.4%                          5
  Taiwan                                         721                         0.8%                         66               0.6%                         11
  Thailand                                       314                         0.3%                         40               0.4%                          8
  Tunisia                                           4                        0.0%                             2            0.0%                          2
  Turkey                                         278                         0.3%                         28               0.2%                         10
  Ukraine                                          69                        0.1%                         12               0.1%                          6
  United Kingdom                               2,564                         2.8%                        337               3.0%                          8
  United States                               40,039                       43.1%                        5,098             45.4%                          8
  Uruguay                                          27                        0.0%                             3            0.0%                          9
  Venezuela                                         8                        0.0%                             3            0.0%                          3

  Foreign Countries                           52,820                       56.9%                        6,129             54.6%                          9

  United States                               40,039                       43.1%                        5,098             45.4%                          8

      All Countries                           92,859                     100.0%                    11,227               100.0%                           8
Note: These numbers are based on data from 193 clinical trials with complete subject and site information.
Source: Office of Inspector General (OIG) analysis of Food and Drug Administration (FDA) marketing applications.approved in FY 2008.




           OEI-01-08-00510             CHALLENGES       TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS                31
     A      P   P E N D              I X ~          C


                                       Table C-2: Country Breakdown for Biologic-Marketing
                                       Applications Approved in FY 2008

                                         Number of             Percentage of                 Number of            Percentage of         Average Number of
  Trial Location
                                          Subjects                  Subjects                     Sites                    Sites           Subjects Per Site

  Argentina                                    4,686                         2.3%                             5            0.7%                        937
  Australia                                      143                         0.1%                             2            0.3%                         72
  Austria                                        115                         0.1%                             2            0.3%                         58
  Belgium                                           1                        0.0%                             1            0.1%                          1
  Brazil                                       5,747                         2.8%                         24               3.3%                        239
  Canada                                       2,138                         1.0%                         14               2.0%                        153
  Chile                                        4,495                         2.2%                             3            0.4%                      1,498
  Colombia                                     5,303                         2.6%                         10               1.4%                        530
  Czech Republic                                 590                         0.3%                         21               2.9%                         28
  Denmark                                      2,405                         1.2%                         12               1.7%                        200
  Dominican Republic                           4,056                         2.0%                             1            0.1%                      4,056
  Finland                                      6,776                         3.3%                         33               4.6%                        205
  France                                         146                         0.1%                         21               2.9%                          7
  Germany                                        679                         0.3%                         35               4.9%                         19
  Honduras                                     4,195                         2.0%                             1            0.1%                      4,195
  Hong Kong                                      100                         0.0%                             1            0.1%                        100
  Hungary                                          13                        0.0%                             1            0.1%                         13
  Iceland                                        710                         0.3%                             1            0.1%                        710
  Israel                                           15                        0.0%                             3            0.4%                          5
  Italy                                          102                         0.0%                         11               1.5%                          9
  Mexico                                      14,078                         6.8%                         13               1.8%                      1,083
  New Zealand                                    170                         0.1%                             5            0.7%                         34
  Nicaragua                                    4,057                         2.0%                             1            0.1%                      4,057
  Norway                                       1,831                         0.9%                         24               3.3%                         76
  Panama                                       4,061                         2.0%                             1            0.1%                      4,061
  Peru                                        13,394                         6.5%                             5            0.7%                      2,679
  Poland                                         457                         0.2%                         14               2.0%                         33
  Portugal                                          9                        0.0%                             2            0.3%                          5
  Romania                                           2                        0.0%                             1            0.1%                          2
  Russia                                           93                        0.0%                             3            0.4%                         31
  Serbia                                           11                        0.0%                             1            0.1%                         11
  Singapore                                      181                         0.1%                             1            0.1%                        181
  Spain                                          435                         0.2%                         19               2.6%                         23
  Sweden                                      93,599                       45.3%                          47               6.6%                      1,991
  Taiwan                                           52                        0.0%                             2            0.3%                         26
  Thailand                                       160                         0.1%                             1            0.1%                        160
  United Kingdom                                 457                         0.2%                         13               1.8%                         35
  United States                               27,130                       13.1%                        361               50.3%                         75
  Venezuela                                    4,250                         2.1%                             1            0.1%                      4,250

  Foreign Countries                         179,712                        86.9%                        356               49.7%                        505

  United States                               27,130                       13.1%                        361               50.3%                         75

      All Countries                         206,842                      100.0%                          717            100.0%                         288
Note: These numbers are based on data from 193 clinical trials with complete subject and site information.
Source: OIG analysis of FDA marketing applications approved in FY 2008.


           OEI-01-08-00510             CHALLENGES       TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS                32
                      Number of Subjects and Number of Inspections per Country for Marketing




                                                                                                                                                                                                                                                                                                                                       33
                                                                                               Figure D-1: Map of Subjects and Inspections per Country




                                                                                                                                                                                                                                                                                                                                       INSPECT FOREIGN CLINICAL TRIALS
                                                                                                                                                                                                                                                                3 inspections
                                                                                                                                                                                                                                                1 inspection
                                                                                                                                                                                                                                                                                1 inspection
                      Applications Approved in Fiscal Year 2008




                                                                                                                                                                                                                                          6 inspections
                                                                                                                                                                                                                                         5 inspections
                                                                                                                                                                                                                                      2 inspections




                                                                                                                                                                                                                                                                                                                                             AND
                                                                                                                                                                                                                              3 inspections




                                                                                                                                                                                                                                                                                                                                       F D A’ S A B I L I T Y T O M O N I T O R
                                                                                                                                                               1 inspection                                                      3 inspections
                                                                                                                                                                                                                                1 inspection
                                                                                                                                                                                                                             2 inspections
                                                                                                                                                                                                                                1 inspection                   2 inspections
A P P E N D I X ~ D




                                                                                                                                                                 102 inspections
                                                                                                                                                                              1 inspection                                                                                                                         1 inspection
                                                                                                                                                                                      1 inspection




                                                                                                                                                                                                                                                                                                                                             TO
                                                                                                                                                                                                                                                                                                                                       CHALLENGES
                                                                                                                                                          Legend                                                            5 inspections        2 inspections
                                                                                                                                                                1-100 Subjects
                                                                                                                                                                100-500 Subjects




                                                                                                                                                                                                                                                                                                                                       OEI-01-08-00510
                                                                                                                                                                500-1,000 Subjects                                    4 inspections
                                                                                                                                                                1,000-5,000 Subjects
                                                                                                                                                                5,000-10,000 Subjects
 
                                                                                                                                                                Greater than 10,000 Subjects
                                                                                                                                                         Source: Office of Inspector General analysis of Food and Drug Administration marketing applications approved in fiscal year 2008 and associated clinical trial inspections.
       A P PEN 0                        x        E


     Agency Comments




          DEPARTMENT OF HEALTH & HUMAN SERVICES

                                                                                Food and Drug Administration
                                                                                Silver Spring, MD 20993




        DATE:         April 23, 2010

        TO:           inspector General

        FROM:         Principal Deputy Commissioner of Food and Drugs

        SUBJECT:      FDA's Response to OIG's Draft Report Entitled, Chall mges 10 FDA '.\'
                      Ahilily 10 Monilor and fnspecl Foreign Clinical Trials

        FDA is providing the attached response to the Office of Inspector General's Draft Report
        entitled, Challenges to FDA's Ability 10 Monitor £/ntl ImpecI Foreign Clinical Trials
        (OEI-Of -08-{)051 0).

        FDA appreciates the opportunity to review and comment on this repOJ1.


                                                     /S/
                                            Joshua M. Sharfstein, M,D. 

                                            Principal Deputy Commissioner of Food and Drugs 




       Attachment




OEI·01·0e·00510        CHALLENGES TO FDA's ABILITY To MONITOR AND INSPECT FOREIGN CLINICAL TRIALS              34
A P P E N D        I X ~ E




 OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   35
A P P E N D        I X ~ E




 OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   36
A P P E N D        I X ~ E




 OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   37
A P P E N D        I X ~ E




 OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   38
A P P E N D        I X ~ E




 OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   39
A P P E N D        I X ~ E




 OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   40
A P P E N D        I X ~ E




 OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   41
A P P E N D        I X ~ E




 OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   42
A P P E N D        I X ~ E
    A C K N O W L E D G M E N T S



                   This report was prepared under the direction of Joyce M. Greenleaf,
                   Regional Inspector General for Evaluation and Inspections in the
                   Boston regional office, and Russell W. Hereford, Deputy Regional
                   Inspector General.

                   Chris Galvin served as the team leader for this study. Other principal
                   Office of Evaluation and Inspections staff from the Boston regional
                   office who contributed to the report include Carolyn Kenline and Rose
                   Lichtenstein; other central office staff who contributed include Talisha
                   Searcy, Megan Ruhnke, and Heather Barton.




 OEI-01-08-00510   CHALLENGES   TO   F D A’ S A B I L I T Y T O M O N I T O R   AND   INSPECT FOREIGN CLINICAL TRIALS   43
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
